FOR IMMEDIATE RELEASE                                               February 1, 2013
Media Contact: 202-565-3908

                      OFFICE OF INSPECTOR GENERAL
                EXPORT-IMPORT BANK OF THE UNITED STATES
                           ANNOUNCES CAPTURE
                   AND SEEKS INFORMATION ON FUGITIVES

WASHINGTON, DC – The Office of Inspector General (OIG) for the Export-Import
Bank of the United States (Ex-Im Bank) announced today that, pursuant to an
ongoing joint investigation, one fugitive has been captured and extradited to the
United States, and several federal fugitives continue to be sought in connection to a
multi-million dollar export fraud scheme.

Federal Agents are currently seeking the location and arrest of eight (8) fugitives
charged in the unsealed federal indictments, and who are believed to be residing in
or near Ciudad Juarez, Chihuahua, Mexico. These fugitives are:

       Sergio Acosta-Camacho, a Mexican citizen and former owner of AML
       Construction;
       Pedro Ruvalcaba-Placencia, a Mexican citizen and owner of a business,
       Delicas Nuez, in Ciudad Juarez;
       Jorge Martinez-Joo, a Mexican citizen and former owner of El Paso-based
       exporter, El Paso Valcomar Inc.;
       Adrian Rascon-Chavez and his wife Genoveva Fontes de Rascon, both United
       States citizens and former owners of Juarez-based clinic Centro Oncologico
       de Norte SA;
       Maria de Jesus Ortiz-Saldivar, a Mexican citizen and the former accountant of
       Genoveva Fontes de Rascon;
       Jorge Valdez-Cota and his wife, Veronica Iglesias-Lucero, both Mexican
       citizens and owners of a metal fabrication shop in Ciudad Juarez; and
       Gilberto Ruiz-Gonzalez, a Mexican citizen, resident of Ciudad Juarez, and
       owner of Passage Supply.

Individuals with information concerning the location of the fugitives in question
may call the Ex-Im Bank OIG Hotline at 1-888-OIG-EXIM (1-888-644-3946) or HSI
Communications at 1- 407-975-1820 or 1-800- BE-ALERT (1-800-232-5378).




                  811 Vermont Avenue, NW Washington, D.C. 20571
The OIG investigations have found that the fugitives and several other defendants
conspired to defraud Ex-Im Bank of millions of dollars through various loan
schemes resulting in over $22 million in claims paid Ex-Im Bank. These fugitives
have been charged with a variety of federal criminal violations to include
conspiracy, wire fraud, and money laundering.

On January 25, 2013, Fugitive Manuel Ernesto Ortiz-Barraza (Ortiz) was extradited
to the United States from Mexico as part of this ongoing investigation
(http://www.exim.gov/oig/upload/Ortize-Barraza-Extradition.pdf). As a result of
the successful capture and extradition of Ortiz, investigators are currently
attempting to locate and arrest eight (8) additional fugitives and co-conspirators of
Ortiz charged as a result of the joint investigation related to trade financing fraud.

Ex-Im Bank OIG, Immigration Customs Enforcement-Homeland Security
Investigations (HSI), the U.S. Postal Inspection Service, and Internal Revenue
Service-Criminal Investigations in Washington, D.C. are conducting this joint
investigation. HSI Special Agents in El Paso and Mexico are assisting Ex-Im Bank
OIG agents to locate the fugitives through liaison efforts with Mexican law
enforcement authorities.

Ex-Im Bank, the official credit agency of the United States, is an independent
executive agency that helps create and maintain U.S. jobs by filling gaps in private
export financing at no cost to American taxpayers. Ex-Im Bank provides a variety of
financing mechanisms, including working capital guarantees, export credit
insurance, and financing to help foreign buyers purchase U.S. goods and services.

Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations.

Additional information about the OIG can be found at www.exim.gov/oig.
Complaints and reports of waste, fraud, and abuse related to Ex-Im Bank programs
and operations can be reported to the OIG hotline at 888-OIG-EXIM (888-644-3946)
or via email at IGhotline@exim.gov.

                                         ###




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
